                  Quality                            Integrity                        Accountability



            DoD IG Report to Congress on Section 324 of the
         National Defense Authorization Act for Fiscal Year 2008


                 Review of DoD Guidelines on Considering Civilians
                        for New and Contracted Functions
                                          Report No. D-2008-111
                                        (Project No. D2008-D000CH-0165.000)



                                                   July 23, 2008

                                                      Special Warning

This document contains information provided as a nonaudit service. Therefore, any work performed was not done in accordance
with Generally Accepted Government Auditing Standards.
Background
     Section 324 of Public Law 110-181, “National Defense Authorization Act for Fiscal Year 2008,” January 28, 2008, requires the
     Under Secretary of Defense for Personnel and Readiness (USD[P&R]) to develop guidelines and procedures to ensure that
     consideration is given to using DoD civilian employees to perform new functions or functions that are performed by contractors.
     The section requires the Inspector General of the Department of Defense to submit a report to Congress, not later than 180 days after
     the enactment of the Act, addressing the implementation of this section and the amendments made by it. This section also repeals
     section 343 of the FY 2006 National Defense Authorization Act.

     Section 343 of the FY 2006 National Defense Authorization Act required DoD to issue guidelines and procedures for ensuring that
     consideration was given to Federal Government employees for work performed under DoD contracts. The Under Secretary of
     Defense for Acquisition, Technology, and Logistics (USD[AT&L]) issued the guidance on July 27, 2007. The guidelines allowed the
     conversion of contracted activities or functions for up to 3 percent of a Component’s authorizations coded as “commercial
     reviewable,” required prior notification of the DoD Competitive Sourcing Official for actions that would exceed the 3-percent limit,
     and gave the DoD Competitive Sourcing Official authority to intervene or stop a section 343 action. As required by section 324 of the
     FY 2008 National Defense Authorization Act, on April 4, 2008, the Deputy Secretary of Defense canceled the section 343 guidance.

Results
     In accordance with section 324 of the FY 2008 National Defense Authorization Act, the Deputy Secretary of Defense issued
     guidelines and procedures on in-sourcing new and contracted functions on April 4, 2008. The guidelines and procedures were
     developed to ensure that the Department gives special consideration to using DoD civilian employees to perform certain categories of
     functions and uses the inventory of contracts for services required by section 807 of the FY 2008 National Defense Authorization Act
     to identify those functions. DoD Components can use DoD civilian employees to perform new functions or functions that are
     performed by a contractor if an economic analysis shows that DoD civilian employees are the low-cost provider, or the DoD
     Component has determined that the function under review is inherently governmental or exempt from private sector performance.

     Supplemental Guidance. Section 324 allows the Military Department Secretaries to prescribe supplemental regulations for
     implementing the guidance on in-sourcing new and contracted functions. The Army issued supplemental guidance on May 8, 2008.
     The Navy and the Air Force plan to issue supplemental guidance; however, neither has drafted supplemental guidance.

     Examples of DoD In-Sourcing Under Previous Guidance. DoD Components have not begun in-sourcing actions under
     section 324 guidance. However, the Army, Navy, and Air Force stated they conducted in-sourcing under the previous section 343
     rules. We discussed two in-sourcing actions with the Army and the Navy for this report. In February 2008, the Army Office of the
     Deputy Chief of Staff, G-37 Force Management approved a concept plan to convert 99 contractor positions to civilian positions to
ensure that inherently governmental functions were performed by Government personnel. The Army calculated that this action
would save $4.8 million in FY 2009 and $34.3 million in the program objective memorandum for FYs 2010 through 2015. In
September 2007, the Naval Supply Systems Command, Fleet and Industrial Supply Center Puget Sound evaluated contractor cost at
the Naval Undersea Warfare Center, Keyport Support Division, and determined that converting the supply support function to a
civilian workforce would save the customer $2.7 million over a 5-year period.

Inventories and Reviews of Service Contracts. Section 807 of the FY 2008 National Defense Authorization Act requires DoD to
submit annual inventories and reviews of contracts for services. On May 16, 2008, the Deputy Under Secretary of Defense for
Acquisition and Technology issued implementing guidelines and stated that, because of the magnitude of the task of conducting
inventories and reviews for all service contracts, DoD would implement section 807 in phases. The Army submitted its draft initial
inventory on June 13, 2008, and will deliver its annual inventory in FY 2009. The Navy and the Air Force will deliver annual
inventories in FY 2010, and all Military Departments and Defense agencies will deliver annual inventories in full compliance with
section 807 in FY 2011.




                                                           ii
Table of Contents

Background                                                       i

Results                                                          i

FY 2008 National Defense Authorization Act                       1

DoD Guidance on Section 324                                      3

Section 324 Supplemental Guidance                                5

Section 343 of the FY 2006 National Defense Authorization Act    6

DoD In-Sourcing Under Section 343                                7

Section 807 of the FY 2008 National Defense Authorization Act    8

Appendix. DoD Section 324 Guidance                              10
FY 2008 National Defense Authorization Act
    Section 324, “Guidelines on InSourcing New and Contracted Out Functions,” of Public Law 110-181, “National Defense
    Authorization Act for Fiscal Year 2008,” January 28, 2008, requires the Inspector General of the Department of Defense to submit a
    report to Congress, not later than 180 days after the enactment of the Act, addressing the implementation of this section and the
    amendments made by this section.

    SEC. 324. GUIDELINES ON INSOURCING NEW AND CONTRACTED OUT FUNCTIONS.

    (a) CODIFICATION AND REVISION OF REQUIREMENT FOR GUIDELINES.—

           (1) IN GENERAL.—Chapter 146 of title 10, United States Code, is amended by inserting after section 2462 the following
    new section:

    § 2463. Guidelines and procedures for use of civilian employees to perform Department of Defense functions

                    (a) GUIDELINES REQUIRED.—(1) The Under Secretary of Defense for Personnel and Readiness shall devise and
    implement guidelines and procedures to ensure that consideration is given to using, on a regular basis, Department of Defense
    civilian employees to perform new functions and functions that are performed by contractors and could be performed by Department
    of Defense civilian employees. The Secretary of a military department may prescribe supplemental regulations, if the Secretary
    determines such regulations are necessary for implementing such guidelines within that military department. (2) The guidelines and
    procedures required under paragraph (1) may not include any specific limitation or restriction on the number of functions or
    activities that may be converted to performance by Department of Defense civilian employees.

                   (b) SPECIAL CONSIDERATION FOR CERTAIN FUNCTIONS.—The guidelines and procedures required under
    subsection (a) shall provide for special consideration to be given to using Department of Defense civilian employees to perform any
    function that—

                           (1) is performed by a contractor and—(A) has been performed by Department of Defense civilian employees
    at any time during the previous 10 years; (B) is a function closely associated with the performance of an inherently governmental
    function; (C) has been performed pursuant to a contract awarded on a non-competitive basis; or (D) has been performed poorly, as
    determined by a contracting officer during the 5-year period preceding the date of such determination, because of excessive costs or
    inferior quality; or




                                                                1
                     (2) is a new requirement, with particular emphasis given to a new requirement that is similar to a function
previously performed by Department of Defense civilian employees or is a function closely associated with the performance of an
inherently governmental function.

               (c) EXCLUSION OF CERTAIN FUNCTIONS FROM COMPETITIONS.—The Secretary of Defense may not
conduct a public-private competition under this chapter, Office of Management and Budget Circular A–76, or any other provision of
law or regulation before—(1) in the case of a new Department of Defense function, assigning the performance of the function to
Department of Defense civilian employees; (2) in the case of any Department of Defense function described in subsection (b),
converting the function to performance by Department of Defense civilian employees; or (3) in the case of a Department of Defense
function performed by Department of Defense civilian employees, expanding the scope of the function.

                 (d) USE OF FLEXIBLE HIRING AUTHORITY.—(1) The Secretary of Defense may use the flexible hiring authority
available to the Secretary under the National Security Personnel System, as established pursuant to section 9902 of title 5, to
facilitate the performance by Department of Defense civilian employees of functions described in subsection (b). (2) The Secretary
shall make use of the inventory required by section 2330a(c) of this title for the purpose of identifying functions that should be
considered for performance by Department of Defense civilian employees pursuant to subsection (b).

              (e) DEFINITIONS.—In this section the term ‘functions closely associated with inherently governmental functions’
has the meaning given that term in section 2383(b)(3) of this title.

        (2) CLERICAL AMENDMENT.—The table of sections at the beginning of such chapter is amended by inserting after the
item relating to section 2462 the following new item:

“2463. Guidelines and procedures for use of civilian employees to perform Department of Defense functions.”

       (3) DEADLINE FOR ISSUANCE OF GUIDELINES AND PROCEDURES.—The Secretary of Defense shall implement the
guidelines and procedures required under section 2463 of title 10, United States Code, as added by paragraph (1), by not later than
60 days after the date of the enactment of this Act.

(b) INSPECTOR GENERAL REPORT.—Not later than 180 days after the date of the enactment of this Act, the Inspector General
of the Department of Defense shall submit to the congressional defense committees a report on the implementation of this section
and the amendments made by this section.
(c) CONFORMING REPEAL.—The National Defense Authorization Act for Fiscal Year 2006 (Public Law 109–163) is amended
by striking section 343.



                                                           2
DoD Guidance on Section 324
           In accordance with section 324 of the FY 2008 National Defense Authorization Act, the Deputy Secretary of Defense issued
           guidelines and procedures on in-sourcing new and contracted functions on April 4, 2008. The guidelines stated that DoD
           Components should consider using DoD civilian employees to perform new functions and functions that are performed by
           contractors but could be performed by Government employees. Special consideration should be given to using DoD civilian
           employees to perform any function that is performed under contract and:

                    •   has been performed by DoD civilian employees at any time during the previous 10 years;

                    •   is closely associated with the performance of an inherently governmental function;
                    •   has been performed pursuant to a contract awarded on a noncompetitive basis; or

                    •   has been determined by a contracting officer to have been performed poorly during the 5 years preceding the date of such
                        determination because of excessive costs or inferior quality.

           The guidelines require DoD Components to make use of the inventory of service contracts required by subsection (c) of section 2330a,
           title 10, United States Code (10 U.S.C. 2330a), as amended by section 807 of the FY 2008 National Defense Authorization Act, to
           identify contracted functions that should be considered for performance by DoD civilian employees. However, DoD Components
           should not delay implementing section 324 until the inventory is completed. For more information on the inventory, see the
           “Section 807 of the FY 2008 National Defense Authorization Act” section of this report. In addition, DoD Components are to review
           the contracts and functions in the inventory to ensure that the inventory does not include any personal services contracts that were
           entered into or are being performed in a manner that is inconsistent with applicable statutory and regulatory requirements, any
           inherently governmental functions, or any functions closely associated with inherently governmental functions.

           Manpower Management. USD(P&R) guidelines and procedures require DoD Components to comply with 10 U.S.C. 129a, 1 as
           implemented by DoD Instruction 1100.22, “Guidance for Determining Workforce Mix,” 2 when considering whether to use DoD
           civilian employees to perform new or expanded mission requirements, or functions that are performed by contractors but could be
           performed by DoD civilian employees. Manpower managers are to follow standard manpower management procedures (consistent
           with 10 U.S.C. 129a) to determine and validate the manpower requirements when a DoD Component has a new or expanded mission

1
    10 U.S.C. 129a requires the Secretary of Defense to use the least costly form of personnel, consistent with military requirements and other needs of the Department.
2
    DoD Instruction 1100.22 implements policy for determining the appropriate mix of manpower (military and civilian) and private sector support necessary to
    accomplish Defense missions consistent with applicable laws, policies, and regulations.


                                                                                   3
requirement or is considering whether to convert from contractor to Government performance. The DoD Component’s principal
official for manpower management may prescribe supplemental regulations if they are needed for the effective management of
section 324 actions. The principal official for manpower management is required to include a complete justification for converting
contracted functions to functions performed by DoD civilians in the Component’s annual submission for the Defense Manpower
Requirements Report. For the full text of the guidelines, see the Appendix.

Costing Guidance. According to USD(P&R) guidelines and procedures, DoD Components are to perform an economic analysis to
determine whether DoD civilians or private sector contractors are the low-cost provider and should perform the work. Additional
guidance on cost factors and cost models that address the full costs of manpower will be provided by a working group established at
the direction of the Deputy Secretary of Defense in Program Decision Memorandum IV, dated December 13, 2006. The working
group is being led by the Office of the Director, Program Analysis and Evaluation (PA&E), Under Secretary of Defense
(Comptroller)/Chief Financial Officer, and USD(P&R), in coordination with the USD(AT&L).

According to the Office of the Director, PA&E, the working group is developing business rules, that cover identifying cost factors
and addressing the full costs of manpower, to use in conducting economic analyses. According to the Office of the Director, PA&E,
to make well-informed manpower decisions, one must recognize that fully burdened costs of manpower are essential for
understanding the actual costs of DoD manpower and that noncash compensation is significant. The coleaders of the working group
issued the draft business rules and corresponding policy memorandum for informal coordination in June 2008 and requested
comments by July 11, 2008. We will not be able to assess the business rules until they are finalized. The Office of the Director,
PA&E and the USD(P&R) are also jointly sponsoring a contract to create a costing software program; however, they are not
expected to issue the contract until the summer of 2009.




                                                            4
Section 324 Supplemental Guidance
    Section 324 of the FY 2008 National Defense Authorization Act allows the Secretary of a Military Department to prescribe
    supplemental regulations to the guidelines and procedures on in-sourcing new and contracted functions. We discussed the status of
    supplemental guidance with personnel from the Army, the Navy, and the Air Force.

           Army—The Army issued supplemental guidance on May 8, 2008. The supplemental guidance includes documenting the
           rationale for applying a manpower-mix criterion and associated function code for the in-sourced function based on DoD
           Instruction 1100.22, eliminates the exclusion of contracts awarded as a result of an Office of Management and Budget
           Circular No. A-76 competition, and lists actions that must be included in the quarterly status report to the Secretary of the
           Army on in-sourcing.
           Navy—The Navy plans to issue supplemental guidance. According to the Acting Director, Navy Competitive Sourcing/
           Manpower Optimization Branch, Office of the Chief of Naval Operations, the Navy has not started formal development of
           supplemental guidance, but is in the process of coordinating as appropriate with the Assistant Secretary of the Navy
           (Manpower and Reserve Affairs) and the Office of Civilian Human Resources. The Navy plans to address accountability,
           tracking, and justification for converting work from contract to Government performance in the supplemental guidance.

           Air Force—The Air Force plans to issue supplemental guidance. According to the Deputy, Strategic Sourcing Division,
           Directorate of Manpower, Organization, and Resources, the Air Force still has to decide whether the supplemental guidelines
           should be issued as a policy memorandum or an Air Force Instruction. The Deputy stated that the Air Force plans to address
           procedures for conducting economic analyses, a process for determining which contracts are candidates for conversion, and a
           method for validating savings in the supplemental guidance. In addition, the Air Force plans to take into consideration lessons
           learned from converted functions under the section 343 guidelines when drafting supplemental guidance for section 324.

    In addition, the Office of the Director of Administration and Management, Office of the Secretary of Defense, plans to issue
    supplemental guidance in the summer of 2008, as allowed by the DoD guidelines implementing section 324. The guidance will
    apply only to Office of the Secretary of Defense staff.




                                                                 5
Section 343 of the FY 2006 National Defense Authorization Act
     Section 343, “Performance of Certain Work by Federal Government Employees,” of Public Law 109-163, “National Defense
     Authorization Act for Fiscal Year 2006,” January 6, 2006, required the Secretary of Defense to issue guidelines and procedures for
     ensuring consideration was given to Federal Government employees for work performed under DoD contracts. The guidelines and
     procedures were required to ensure special consideration was given to contracts that had been performed by Federal Government
     employees at any time on or after October 1, 1980; were associated with the performance of inherently governmental functions; were
     not awarded competitively; or had been determined by a contracting officer to be poorly performed because of excessive costs or
     inferior quality.

     DoD Guidance. On July 27, 2007, the USD(AT&L) issued guidance to the DoD Components implementing section 343 of the
     FY 2006 National Defense Authorization Act. The USD(AT&L) stated that, to ensure DoD is spending taxpayer dollars wisely, it is
     important for DoD Components to consider the advantages of converting from one form of personnel (military, civilian, or private
     contract) to another for the performance of commercial activities or functions when reprioritizing programs, assessing risk, and
     building program and budget submissions, consistent with 10 U.S.C. 129a.

     The USD(AT&L) guidance allowed the use of the section 343 guidelines on converting contracted activities or functions for up to
     3 percent of a Component’s authorizations coded as “commercial reviewable” in the DoD Component’s approved inherently
     governmental and commercial activities inventory for the previous fiscal year. Actions exceeding the 3-percent limit required prior
     notification of the DoD Competitive Sourcing Official. The guidance also stated that the DoD Competitive Sourcing Official could
     intervene or stop a section 343 action.

     Conforming Repeal. Section 324 of the FY 2008 National Defense Authorization Act repealed section 343 of the FY 2006
     National Defense Authorization Act, and the April 4, 2008, Deputy Secretary of Defense memorandum implementing section 324
     canceled the July 27, 2007, USD(AT&L) memorandum.




                                                                 6
DoD In-Sourcing Under Section 343
    The Military Departments stated that they took advantage of the section 343 guidelines to convert contracted functions that were
    associated with the performance of inherently governmental functions; had not been awarded competitively; or had been determined
    by a contracting officer to be poorly performed because of excessive costs or inferior quality. We spoke with individuals from the
    Army, the Navy, and the Air Force regarding in-sourcing actions under the section 343 guidance. All three Military Departments
    stated that they conducted in-sourcing using the section 343 guidelines. The following are examples of successful in-sourcing
    actions by the Army and the Navy. Although Air Force officials stated that they had converted contracted functions using
    section 343, they did not provide an example of an in-sourcing action for this report.

           Army—The Army is using the section 343 guidance to convert a contracted function associated with the performance of an
           inherently governmental function. In December 2007, the Office of the Deputy Chief of Staff, G-3/5/7 submitted a
           conversion concept plan to the Office of the Deputy Chief of Staff, G-37 Force Management to provide G-3/5/7 with an
           improved mix of Government civilian, military, and contract personnel to better perform its required missions; ensure
           governmental personnel conduct inherently governmental duties; and maintain continuity while reducing overall personnel
           costs. G-3/5/7 planned to accomplish this by converting 99 contractor positions to civilian positions. G-3/5/7 conducted a
           manpower analysis showing a cost savings of 26.7 percent to the Government, and determined that the current level of
           manpower and ability to accomplish assigned missions could be maintained with reduced funding. Also, this action would
           ensure that all associated inherently governmental functions are performed by Government personnel. The Director of Force
           Management approved the plan on February 13, 2008, and stated that the conversion will provide a savings of $4.8 million in
           FY 2009 and $34.3 million in the program objective memorandum for FYs 2010 through 2015. The concept plan will be
           implemented in October 2008.

           Navy—The Navy used the section 343 guidance to convert contract support services that had been determined by the Fleet
           and Industrial Supply Center Puget Sound Business Office and the contracting officer to be significantly higher in cost than
           those for similar operations managed by the Navy. In September 2007, the Naval Supply Systems Command, Fleet and
           Industrial Supply Center Puget Sound conducted a detailed economic analysis of contractor cost at the Naval Undersea
           Warfare Center, Keyport Support Division, and determined that civilian personnel represented the least costly form of labor
           to meet the military requirements and the needs of the Navy. The Fleet and Industrial Supply Center Puget Sound estimated
           that using 65 civilians to perform the supply support function originally executed by contractors would save the customer
           $2.7 million or 10 percent over a 5-year period. The Fleet and Industrial Supply Center Puget Sound implemented this
           operation in November 2007 and stated that the costs of the function are now comparable with those of other Navy
           warehousing and supply support functions in the region.




                                                               7
Section 807 of the FY 2008 National Defense Authorization Act
           Section 807, “Inventories and Reviews of Contracts for Services,” of the FY 2008 National Defense Authorization Act amends
           10 U.S.C. 2330a and requires annual inventories and reviews of contracts for services. Specifically, section 807 requires the
           Secretary of Defense to submit an annual inventory to Congress by the end of the third quarter of each fiscal year, beginning in
           FY 2008, of the functions performed during the preceding fiscal year pursuant to contracts for services for or on behalf of DoD. In
           addition, section 807 requires that the inventory be made available to the public 30 days after it is submitted to Congress. The
           following must be included in the inventory:

                    A. the functions and missions performed by the contractor;

                    B. the contracting organization, the DoD Component administering the contract, and the organization whose requirements
                       are being met through contractor performance of the function;

                    C. the funding source for the contract under which the function is performed, by appropriation and operating agency;

                    D. the fiscal year for which the activity first appeared on an inventory under this section;

                    E. the number of full-time contractor employees (or equivalent) paid for the performance of the activity;

                    F. a determination whether the contract pursuant to which the activity is performed is a personal services contract; and

                    G. a summary of the other data required to be collected for the activity by 10 U.S.C. 2330a.

           Finally, section 807 requires the Military Department Secretaries or Directors of Defense agencies to review the inventoried
           contracts within 90 days of submission to Congress. The reviews must ensure that each personal services contract on the inventory
           is being performed in accordance with applicable statutory and regulatory requirements; the functions performed are not inherently
           governmental; and, to the maximum extent practicable, the functions performed are not closely associated with inherently
           governmental functions. 3 When the reviews are completed, section 807 requires the Military Departments and Defense agencies to
           identify functions that should be considered for conversion to performance by DoD civilian employees, pursuant to section 324, or to an
           acquisition approach that would be more advantageous to DoD. The Military Departments and Defense agencies must develop a plan to
           provide for appropriate consideration of the conversion of functions identified within a reasonable period of time.

3
    To comply with the review requirement, on June 13, 2008, the Army began requiring senior leaders to complete checklists and certifications before initiating or
    renewing a services contract.


                                                                                   8
           Implementation Requirement. Prior to the section 807 amendment, the Federal Procurement Data System – Next Generation met
           the requirements of 10 U.S.C. 2330a. However, according to an official from the Office of Defense Procurement, Acquisition
           Policy, and Strategic Sourcing, the Federal Procurement Data System – Next Generation cannot be used to fully meet the
           requirements of section 807. This is because of the requirement to enter into the system the number of full-time contractor
           employees (or equivalent) paid for the performance of the activity. Within DoD, only the Army has a data system that tracks full-
           time equivalents. The Army Contract Manpower Reporting Application captures contractor full-time equivalents for most Army
           contracts for services; therefore, the Army is using it, in conjunction with existing procurement data systems, to populate its inventory.

           Implementation Schedule. On May 16, 2008, the Deputy Under Secretary of Defense for Acquisition and Technology issued
           direction for implementing section 807. Because of the magnitude of the task of conducting inventories and reviews for all service
           contracts, the Deputy Under Secretary of Defense for Acquisition and Technology proposed to Congress that DoD implement
           section 807 in phases. The implementation schedule follows.

                    Phase I—FY 2008. The Department of the Army will deliver the following:

                        •   an initial inventory that addresses the reporting criteria set forth in section 807 (items A through F listed above) no
                            later than June 13, 2008; 4 and

                        •   a fully compliant inventory with the methodology and cost for developing, delivering, and publicizing the prototype
                            inventory no later than September 19, 2008. This information is for distribution to the other Military Departments,
                            Defense agencies, and Congress.

                    Phase II—FY 2009. The Army will deliver its annual inventory in full compliance with section 807. The Departments of
                    the Air Force and the Navy will deliver initial inventories for review and approval.

                    Phase III—FY 2010. The Departments of the Air Force and the Navy will deliver their annual inventories in full
                    compliance with section 807. The Defense agencies will deliver initial inventories for review and approval.

                    Phase IV—FY 2011. All Military Departments and Defense agencies will deliver their annual inventories in full compliance
                    with section 807.

4
    According to the Office of Defense Procurement, Acquisition Policy, and Strategic Sourcing, on June 13, 2008, the Army submitted its draft inventory, which
    addresses the reporting criteria.




                                                                                  9
Appendix. DoD Section 324 Guidance




                      10
11
12
13
14
15
16
17
18
19
20
